<html>
<title> - MARKUP OF H. RES. 496, THE COMMITTEE FUNDING RESOLUTION; COMMITTEE RESOLUTION 112-9, STANDARDS FOR THE ELECTRONIC POSTING OF HOUSE AND COMMITTEE DOCUMENTS AND DATA; AND COMMITTEE RESOLUTION 112-10, MEMBERS' CONGRESSIONAL HANDBOOK</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]





  MARKUP OF H. RES. 496, THE COMMITTEE FUNDING RESOLUTION; COMMITTEE 
  RESOLUTION 112-9, STANDARDS FOR THE ELECTRONIC POSTING OF HOUSE AND 
COMMITTEE DOCUMENTS AND DATA; AND COMMITTEE RESOLUTION 112-10, MEMBERS' 
                         CONGRESSIONAL HANDBOOK

=======================================================================

                                MEETING

                               before the

                           COMMITTEE ON HOUSE
                             ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

               Held in Washington, DC, December 16, 2011

                               __________

      Printed for the use of the Committee on House Administration




<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                       Available on the Internet:
                             www.fdsys.gov

                                _____

                  U.S. GOVERNMENT PRINTING OFFICE
72-283                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001













                   COMMITTEE ON HOUSE ADMINISTRATION

                DANIEL E. LUNGREN, California, Chairman
GREGG HARPER, Mississippi            ROBERT A. BRADY, Pennsylvania,
PHIL GINGREY, M.D., Georgia            Ranking Minority Member
AARON SCHOCK, Illinois               ZOE LOFGREN, California
TODD ROKITA, Indiana                 CHARLES A. GONZALEZ, Texas
RICHARD B. NUGENT, Florida

                           Professional Staff

             Philip Kiko, Staff Director & General Counsel
                  Jamie Fleet, Minority Staff Director

 
  MARKUP OF H. RES. 496, THE COMMITTEE FUNDING RESOLUTION; COMMITTEE 
  RESOLUTION 112-9, STANDARDS FOR THE ELECTRONIC POSTING OF HOUSE AND 
COMMITTEE DOCUMENTS AND DATA; AND COMMITTEE RESOLUTION 112-10, MEMBERS' 
                         CONGRESSIONAL HANDBOOK

                              ----------                              


                       FRIDAY, DECEMBER 16, 2011

                          House of Representatives,
                         Committee on House Administration,
                                                    Washington, DC.
    The committee met, pursuant to call, at 10:40 a.m., in room 
1310, Longworth House Office Building, Hon. Daniel E. Lungren 
(chairman of the committee) presiding.
    Present: Representatives Lungren, Harper, Gingrey, Rokita, 
Nugent, Brady, and Gonzalez.
    Staff Present: Phil Kiko, Staff Director and General 
Counsel; Peter Schalestock, Deputy General Counsel; Kimani 
Little, Parliamentarian; Joe Wallace, Legislative Clerk; Yael 
Barash, Assistant Legislative Clerk; Salley Wood, 
Communications Director; Linda Ulrich, Director of Oversight; 
Dominic Storelli, Oversight Staff; Bob Sensenbrenner, Elections 
Counsel; Karin Moore, Elections Counsel; George Hadjiski, 
Director of Member Services; Richard Cappetto, Professional 
Staff; Jamie Fleet, Minority Staff Director; Matt Pinkus, 
Minority Senior Policy Analyst; Matt Defreitas, Minority 
Professional Staff; and Greg Abbott, Minority Professional 
Staff.
    The Chairman. I now call to order the Committee on House 
Administration for today's committee markup. A quorum is 
present, so we may proceed.
    Today we will consider two items--actually, three items. 
The first will be H. Res. 496, the House Committee Funding 
Resolution; secondly, a committee resolution on the new House-
wide electronic posting standards; and, third, consideration of 
the revised Members' Congressional Handbook.
    H. Res. 496 is a resolution authorizing committee funding 
levels for the second session of the 112th Congress. Last 
month, this committee held a full-day hearing at which we heard 
from nearly every chair and ranking member. As some may recall, 
with the agreement of Mr. Brady when he was chairman, we 
started a process by which committee chairmen and ranking 
members appeared before our committee on an annual basis to 
talk about their budgets, rather than just once every 2 years.
    During the hearing that we had this year, we discussed how 
each committee absorbed the 5 percent budget reduction 
implemented at the beginning of the 112th Congress and how, as 
we continue to reduce government spending, they will manage 
additional reductions for this next year. Listening to the 19 
House committees that testified provided important insight into 
their needs in serving this institution and in its role of 
oversight.
    As I have mentioned before, as chairman of the Committee on 
House Administration, I certainly understand the challenges of 
stretching committee resources. However, as the representative 
of California's Third District, where constituents are 
continuing to struggle to make ends meet, where we have a 12.4 
percent unemployment rate, I appreciate every committee's 
willingness to do more with less.
    This resolution, matching authorization levels with the 
reduced funding levels, required us to make extremely difficult 
decisions. Most committees will be faced with tremendous 
oversight responsibilities in the year 2012. Particularly 
daunting will be Armed Services' charge of managing the 
automatic sequestration of $600 billion in defense funding 
triggered by the Budget Control Act superimposed over the 
already-existing cuts that were mandated by previous votes.
    In addition to Armed Services, the Ethics Committee, tasked 
with the thankless job, I would say, of holding Members and 
staff to the highest ethical standards, has requested, and will 
receive under this resolution, a reprieve from authorization 
reductions.
    To offset these exceptions, we have identified and reduced 
the authorization of budget committees that we feel are able, 
even though it is difficult, to absorb a slightly larger 
reduction in 2012. In addition to ourselves, that is the 
Committee on House Administration; the Committee on Science, 
Space, and Technology; and the Committee on Small Business, who 
will receive slightly higher reductions than the 6.4 percent 
cut applied to the remaining House committees. Provided that 
their needs may change throughout the year, we can always 
consider future funding resolutions.
    Again, this process did require difficult decisions, and I 
want to thank each member of the committee for their 
cooperation and each of the committees for their cooperation.
    Our second item for consideration is the committee 
resolution on House-wide electronic posting standards that will 
vastly improve public access to House and committee documents.
    Effective January 1, 2012, these standards require the 
Clerk of the House to establish and maintain a centralized Web 
site where the public can access all House bills, amendments, 
and resolutions for floor consideration in XML, an open, 
searchable format. These standards also instruct the Clerk to 
establish additional functionality on the centralized site to 
support committee documents posted in XML.
    With the adoption of these standards, for the first time 
the public will have easy access to searchable information on 
pending and adopted legislation. It is our hope that this 
enhanced access will increase constituent feedback on 
legislative initiatives and ultimately improve the legislative 
process.
    We would certainly like to thank the Clerk of the House and 
each committee for their assistance and cooperation throughout 
this process. And I look forward to identifying ways to further 
increase transparency.
    And then the third matter that we will bring up is the 
Members' Congressional Handbook. This has been a project of 
some duration, in which we have received active participation 
by the minority side. We have incorporated a number of their 
suggestions in the changes that have been made in the handbook. 
We think we make it much more understandable to Members. There 
is greater specificity. It is consistent with the statutes and 
House rules. It updates all references to those, the offices 
and phone numbers.
    Substantive changes: We didn't think the franking 
regulation should be in the handbook, that it ought to be in a 
separate handbook. The town hall section has been updated to 
reflect technological changes. The Web site section has been 
updated to reflect technological changes. To make it very 
specific so that Members know, food is permitted for two 
legislative planning sessions for Members' offices. The 
security portion has been rewritten in light of the new 
security concerns. Representational programs have been 
identified and added.
    We clear up the question about whether Members or their 
staff, under extraordinary circumstances, like a bad snowstorm 
that would not allow people to return to their residences in 
this area, whether those kinds of costs could be reimbursed. 
Under extraordinary circumstances, that would be allowed with 
written authorization from the committee. And then we 
specifically identify the categories where advance payments can 
be made, payments from one year to the next.
    We think these are all good changes that will allow easier 
understanding of what the rules are, allow Members to ensure 
that they abide by the rules, and to give direction both to 
committees and staff when future questions come up.
    And so I would like to thank my colleagues for being here 
today.
    And I would now recognize the ranking member, Mr. Brady, 
for any opening statement he may wish to give.
    Mr. Brady. Thank you, Mr. Chairman.
    Mr. Chairman, I oppose this unprecedented committee 
defunding resolution, which will reduce committee budgets by an 
average of 6.4 percent during the second session. The cut comes 
9 months after committees had already received their budgets 
for the entire 112th Congress in House Resolution 147, 
following the 5 percent cut in total House fundings.
    As we heard testimony during our recent follow-up on 
oversight hearings, additional sudden budget cuts undermine the 
House's basic legislative and oversight functions. We should 
listen to the testimony from our colleagues where many of them 
said they cannot afford these cuts.
    We should also recognize that the original 5 percent cut 
was sufficient. Staff now will have to be dismissed on some 
committees, if this resolution passes, without any rationale or 
notice. And the Democratic minority will bear the brunt of this 
cut. As you know, when you took over control of the House, you 
now have two-thirds of all the committee staff and we went from 
two-thirds down to one-third. We had to make our cuts, and that 
is the way it works, and we understand that. But now they will 
have to take another additional cut after a cut before.
    And that is why I am going to offer an amendment. I am just 
hoping that some of our committees can be resourceful enough to 
try to make do with these cuts without having to lay off any 
additional staff. It is not their fault. I think and I am sure 
that you agree with me and everybody else here agrees that we 
have great staff here. I know I could not function without my 
staff.
    And we do have a barebones staff now. I do recognize and 
understand the fact that--it is not underestimated that we have 
to do some kind of cutting somewhere. We have already shown 
that. And I just hope that we don't do it to the detriment of 
how we can function in this House.
    So, Mr. Chairman, with that, I urge my colleagues to defeat 
this resolution.
    The Chairman. I thank the gentleman for his comments, 
although I may disagree with him.
    And I do just want to say for the record that the ranking 
member has been very open about his positions on this but also 
very cooperative in tough decisions that we have had to make.
    All Members are reminded that they have an opportunity to 
put a statement in the record, if they wish.
    The Chairman. And I would now call up and lay before the 
committee House Resolution 496 to adjust the amount provided 
for the expenses of certain committees.
    Without objection, the bill will be considered as read and 
open for amendment at any point.
    [The bill follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    The Chairman. Are there any amendments to the resolution?
    Mr. Brady. Mr. Chairman?
    The Chairman. Yes?
    Mr. Brady. I would like to offer an amendment to the 
resolution.
    The Chairman. The gentleman is recognized for that.
    Mr. Brady. I would like to offer an amendment to provide 
the opportunity for committee staff to receive their salaries 
for up to 60 days if they are dismissed as a result of passage 
of this resolution.
    This is a common practice in the private sector and a lot 
of other--and all sectors of people that, when they do get laid 
off, especially at city, State, Federal, that they do provide 
this.
    The amendment is a modified version of House Resolution 
1104, brought to the floor at the end of the 109th Congress by 
our former chairman, Vern Ehlers.
    The Chairman. If the gentleman will yield for just----
    Mr. Brady. Sure.
    The Chairman [continuing]. A moment, without objection, the 
amendment will be considered as read.
    [The amendment by Mr. Brady follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    The Chairman. And the gentleman is recognized for 5 minutes 
to speak on behalf of it.
    Mr. Brady. Thank you.
    Unfortunately, it was withdrawn prior to a final vote. That 
resolution, unlike this one, also included transition funding 
for departing leadership staff.
    Again, not to reiterate, but I just feel badly for the 
people that do work--and all of them work extremely hard. I 
love when they pull my BlackBerry up and they tell us our 
schedule and they put the question mark behind when we are 
going to be leaving here.
    And, as you all know, our staff stay right with us. They 
don't get any overtime, they don't get any compensation time. 
And if we could just give them a little something to give them 
a little bit of time, because this is coming on them quickly 
too.
    And, hopefully, it doesn't have to happen. Hopefully, we 
can be creative through our committees and the rest of the 
committees can be creative, where we don't have to hurt the 
little people and the people that are here supporting us 24-7.
    So, with that, Mr. Chairman, I just appreciate you taking 
my amendment and ask for its adoption.
    The Chairman. I thank the gentleman.
    Are there other Members who wish to speak to the amendment?
    Mr. Gonzalez. Mr. Chairman?
    The Chairman. The gentleman from Texas.
    Mr. Gonzalez. Thank you very much, Mr. Chairman.
    I, of course, would be supportive of the amendment.
    This is not a new idea, and it actually has been argued 
from Members on the other side of the aisle. We all recall 2006 
and the debate then, and it was appropriate. Taking into 
consideration that individuals will be losing their jobs as a 
result of more austere times, our belt-tightening on the Hill, 
which is the appropriate thing to do, but, still, this is a 
hardship that is going to befall many families at a more 
difficult time than when this was debated previously, let's say 
in 2006, when the Democrats took the House and we knew that 
there would be a reduction of staff members on the Republican 
side. But I think the same rule would apply and the same 
consideration as to the families that are going to be impacted.
    It is a more difficult time today. All of us have to 
acknowledge the difference between 2006, even though we were on 
the road to the recession, no doubt, but the full impact of it 
has been felt. And not to make things harder or more dire for 
those that may not be employed on the Hill anymore or in the 
committees and the wonderful work they provide us, it is going 
to be a tough job market. We all know that.
    So that a severance package, which, obviously, is commonly 
an industry standard in the private sector, shouldn't be 
something so foreign to us, when we think in terms of fairness, 
when individuals lose jobs through no fault of their own, not 
as a result of underperformance, but actually they are valued 
members of what we try to do up here. And if we are going to do 
any budget cutting, I think we have to do it in a fair and 
equitable manner.
    So I am glad that Mr. Brady is introducing the amendment, 
and I am hoping that we can act accordingly and in a fair 
fashion.
    And I would yield back.
    The Chairman. I thank the gentleman for his comments.
    I might just recognize myself to oppose this amendment. I 
do not do that with any great joy. We are in very difficult 
times. Individual Members, in terms of the impact of the 
cutbacks in our own offices, have had to make some very, very 
difficult decisions. In my own office, I am down two of my 
staffers as a direct result of the budget constraints that we 
have had to impose.
    While a couple of chairmen said they might have to lay off, 
most indicated--chairmen or ranking members--most indicated 
that they would do everything they could to ensure that that 
did not occur.
    And this is different than the times when there is a change 
in leadership from one party to the other. And I know we have 
had attempts to try and have severance packages in those 
particular circumstances. Frankly, we just don't have the money 
to do that at this time.
    And so I would reluctantly oppose the gentleman's 
amendment.
    Mr. Gingrey. Mr. Chairman?
    The Chairman. The gentleman from Georgia.
    Mr. Gingrey. Mr. Chairman, I know that this amendment, as I 
read through it and listened to Mr. Brady and Mr. Gonzalez, is 
coming from the heart and an act of compassion on their part, 
and I commend them for that.
    And, you know, we could quibble, you know, about the number 
of days that a person had been employed during the year and 
whether it was continuous or not continuous service and all 
that. But I, too, while initially I felt that I would support 
this amendment, I am going to be opposed to it because of two 
points.
    And the chairman addressed maybe at least one of those 
points, in regard to if we made this a part of the resolution, 
then it would be an entitlement that would have to be done. And 
we would have to get budget authority and appropriations to do 
that.
    And it is within the prerogative of each and every 
committee to decide in their own budget, even though I know the 
budgets are getting skimpier and skimpier and more difficult to 
find the resources to give severance pay, whether one committee 
does it for a month, another committee does it for 2 months, 
and they set the parameters upon which a severed employee would 
be eligible for that pay, if any.
    I think that is really what goes on in the private sector, 
as well. Mr. Brady referenced, you know, the private sector, 
and that is absolutely true. But there are many companies that, 
you know, you get 2 weeks' notice that your job is going to be 
eliminated and you get paid up to the last day you work, and 
that is it. Others are more generous, if they can afford to be.
    So I understand where Mr. Brady is coming from in regard to 
the amendment, but for those reasons I will also oppose it.
    The Chairman. If there is no further discussion, I will 
call a vote.
    All those in favor of the amendment offered by the ranking 
member, say, ``aye.''
    And those opposed, ``nay.''
    In the opinion of the chair, the nays have it.
    Are there any other amendments?
    If not, I move that the committee favorably report House 
Resolution 496 to the House.
    And the question is on the motion.
    All those in favor, signify by saying, ``aye.''
    And those opposed, ``no.''
    In the opinion of the chair, the ayes have it, and the 
motion is agreed to.
    Mr. Brady. Mr. Chairman?
    The Chairman. Yes?
    Mr. Brady. Could I announce that the minority requests 2 
additional calendar days, provided by Clause 2 of Rule XI of 
the rules of the House, to file views.
    The Chairman. Without objection.
    Mr. Brady. Thank you.
    The Chairman. Without objection, the motion to reconsider 
is laid on the table.
    Pursuant to Clause 2 of Rule XI, Members are entitled to 2 
additional calendar days to file such views in writing and 
signed by the Member with the clerk of the committee.
    I ask unanimous consent the staff be authorized to make any 
necessary technical and conforming changes to the measure that 
the committee just considered.
    Without objection, it is so ordered.
    I now call up and lay before the committee Committee 
Resolution 112-9 to adopt online posting standards.
    Without objection, the resolution will be considered as 
read and open for amendment at any point.
    [The resolution follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    The Chairman. Are there any amendments to the resolution?
    If not, I move that the committee adopt the resolution. The 
question is on the motion.
    All those in favor of the motion, signify by saying, 
``aye.''
    All opposed, signify by saying, ``nay.''
    In the opinion of the chair, the ayes have it, and the 
motion is agreed to.
    Without objection, the motion to reconsider is laid upon 
the table.
    I ask unanimous consent that the staff be authorized to 
make any necessary technical and conforming changes to the 
measure that the committee just considered.
    Without objection, so ordered.
    The last matter that we have would be for us to consider a 
committee resolution to adopt a revised version of the Members' 
Congressional Handbook. This version, which has been made 
available to the members of the committee, is the one before 
us.
    [The handbook follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    The Chairman. The last time the committee overhauled this 
document was over a decade ago. Our offices have worked 
extensively on a bipartisan basis this year, reaching out to 
Members and staff, to determine the best changes and necessary 
updates. I am pleased to say that we now have a finished 
product that provides greater clarity and reflects technical 
advances, such as Members' ever-increasing Web presence, 
encompassing everything from official Web sites to tele-town 
halls.
    I appreciate the ranking member's support in pursuing this 
bipartisan effort to provide clear, up-to-date regulations for 
the use of our Members through their Members' representational 
allowances.
    And I would ask unanimous consent that the consideration of 
the committee resolution to adopt the Members' Congressional 
Handbook be added to the agenda for today's markup.
    And, without objection, it is so ordered.
    So I would call up and lay before the committee the 
Committee Resolution 112-10 to adopt the Members' Congressional 
Handbook.
    Without objection, the resolution will be considered as 
read and open for amendment at any point.
    [The resolution follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    The Chairman. Well, before I do that, I just might ask if 
the ranking member has any comments on this.
    Mr. Brady. Just, Mr. Chairman, I am very appreciative of 
the majority's consideration of the minority's suggestions and 
the effort to include my staff throughout this process. And I 
thank you and thank your staff.
    The Chairman. I thank the gentleman for his comments.
    Are there any amendments to the resolution?
    If not, I move the committee adopt the resolution.
    The question is on the motion.
    All those in favor of the motion, signify by saying, 
``aye.''
    All opposed, ``nay.''
    In the opinion of the chair, the ayes have it, and the 
motion is agreed to.
    Without objection, the motion to reconsider is laid upon 
the table.
    I want to thank all the Members for their attendance, for 
their cooperation, and for their work on this. Also, your 
staffs have been very, very helpful. They have been directly 
involved in this, and without their help we couldn't have 
gotten it done. We are getting it done under the wire.
    I think my hope is that I might be able to bring it to the 
floor later, if we worked it out for a UC on the Members' 
Handbook. We would not be able to do that if we hadn't been 
able to get this done at this moment.
    So I thank everybody here, and Merry Christmas.
    [Whereupon, at 11:05 a.m., the committee was adjourned.]

</pre></body></html>
